No.
3ftt tf)e

Supreme Court of tfje ®ntteb States
Eric A. Longmire,
Petitioner,
v.
Warshaw Burstein Cohen Schlesinger
& KUH, LLP,
Respondent.
On Petition for a Writ of Certiorari to the
New York State Court of Appeals
PETITION FOR WRIT OF CERTIORARI
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Becker Gallagher ■ Cincinnati, OH • Washington, D.C. ■ 800.890.5001

1

QUESTIONS PRESENTED FOR REVIEW
Whether the State Appellate Division wrongfully
denied Petitioner’s Motion for Leave to Appeal when
sua sponte and without notice to Petitioner, and
without providing him an opportunity to respond, it
determined that Petitioner failed to establish a prima
facie case of employment discrimination against his
former employer.
Whether the State Appellate Division erred in
affirming sua sponte and without notice to Petitioner,
and without providing him an opportunity to respond,
the decision and order of the motion court in dismissing
Petitioner’s counterclaim for legal malpractice against
the Respondent.

r

11

PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Eric A. Longmire, Petitioner and Appellant below.
Warshaw Burstein Cohen Schlesinger & Kuh, LLP,
Respondent here and below.
LIST OF PROCEEDINGS
COURT OF APPEALS OF THE STATE OF NEW
YORK
Index No.: 116683/09
WARSHAW BURSTEIN COHEN SCHLESINGER &
KUH, LLP v. ERICA. LONGMIRE.
Judgment dated 09/12/19 Longmire’s motion to appeal
DENIED without opinion.
SUPREME COURT, APPELLATE DIVISION, FIRST
DEPARTMENT, OF THE STATE OF NEW YORK
Index No.: 116683/09
WARSHAW BURSTEIN COHEN SCHLESINGER &
KUH, LLP v. ERIC A. LONGMIRE.
Judgment dated 5/16/2013 Warshaw Burstein Cohen
Schlesinger & Kuh, LLP motion to dismiss Longmire’s
counterclaim for legal malpractice GRANTED and
AFFIRMED.
Warshaw Burstein Cohen Schlesinger & Kuh, LLP v.
Longmire, 106 A.D.3d536,965N.Y.S.2d458,2013 N.Y.
App. Div. LEXIS 3487, 2013 NY Slip Op 3566,118 Fair
Empl. Prac. Cas. (BNA) 852, 2013 WL 2096485.

!

Ill

SUPREME COURT OF THE STATE OF NEW YORK
Index No.: 116683/09
WARSHAW BURSTEIN COHEN SCHLESINGER &
KUH, LLP v. ERICA. LONGMIRE.
Judgment dated 4/19/2012 Warshaw Burstein Cohen
Schlesinger & Kuh, LLP motion to dismiss Longmire’s
counterclaim for legal malpractice GRANTED.
UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK
05 Civ. 6725 (SHS)
ERIC A. LONGMIRE v. GUY P. WYSER PRATTE
& WYSER-PRATTE MANAGEMENT CO.
Judgment Dated September 6, 2007 Motion for
Summary Judgment in favor of Defendants
GRANTED; Plaintiffs claim of employment
discrimination DISMISSED WITH PREJUDICE.
Longmire v. Wyser-Pratte, 2007 U.S. Dist. LEXIS
65844,101 Fair Empl. Prac. Cas. (BNA) 1311, 90 Empl.
Prac. Dec. (CCH) P42,958.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

PARTIES TO THE PROCEEDINGS. .....

11

LIST OF PROCEEDINGS

11

TABLE OF AUTHORITIES

Vll

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

BASIS OF JURISDICTION IN THIS COURT

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . .................

2

STATEMENT OF THE CASE

5

A. Petitioner’s Background.......... ................

5

B. Petitioner’s Employment at WPMC ....

5

C. Petitioner’s Employment Discrimination
Suit Against His Former Employer........ 9
D. Respondent’s suit for legal fees and
Petitioner’s legal malpractice
counterclaim............................................. 12
1. Supreme Court of New York ............. 16
2. Appellate Division, First Department,
Supreme Court of New York........
18
i. Referee’s Report.........................

19

3. State of New York Court of Appeals . 19

|

V

REASONS TO GRANT THIS PETITION

19

I.

THE APPELLATE DIVISION’S ACTIONS
VIOLATED
PETITIONER’S
CONSTITUTIONAL RIGHTS TO DUE
PROCESS. ACCORDING TO THE U.S.
SUPREME COURT....................................... 19

II.

THE APPELLATE DIVISION AND
COURT OF APPEALS ERRED IN
DISMISSING PETITIONER’S CLAIM FOR
LEGAL MALPRACTICE AGAINST
RESPONDENT............................................. 23

III.

AS A MATTER OF LAW JUDGMENT MUST
BE ENTERED IN FAVOR OF PETITIONER,
IF A JURY DECIDES HE WAS
TERMINATED, ACTUALLY OR
CONSTRUCTIVELY..................................... 27
A. The evidence proves that petitioner
unequivocally established a prima facie
case of employment discrimination
against his former employer if not for
Respondent’s negligence.................. .
27
B. WPMC and GWP Failed to Provide a
Legitimate, Non-Discriminatory
Explanation for Petitioner’s Discharge on
January 31, 2004 ..................................... 38
C. If Needed, Petitioner Could Show Pretext
If Afforded the Opportunity..................... 40

CONCLUSION

42

VI

APPENDIX
Appendix A Order Denying Motion for Leave to
Appeal in the State of New York Court
of Appeals
(September 12, 2019)
App. 1
Appendix B Order in the Supreme Court of the
State of New York Appellate Division:
First Department
(May 16, 2013)
App. 3
Appendix C Decision and Order in the Supreme
Court of the State of New York,
County of New York
(April 19, 2012)
App. 7

Vll

TABLE OF AUTHORITIES
CASES
Airgas Specialty Gases Inc. v. Kumar,
466 Fed. Appx. 41 (2d Cir. 2012)..................

24

Alexander u. Fulton County,
207 F.3d 1303 (11th Cir. 2000).............

40

Armstrong v. Manzo,
380 U.S. 545 (1965).......................................... 20, 21
Ash u. Tyson Foods, Inc.,

546 U.S. 454 (2006).................................

37

Bridget Gladwin v. Rocco Pozzi and County
of Westchester,
403 Fed Appx 603 (2d Cir. 2010) .........

36

Brody v. Brody,
98 A.D.2d 702 (N.Y. 2d Dept. 1983)........... ..

21

Bullard v. Sercon Corp.,
846 F.2d 463 (7th Cir. 1988)...........................

40

Byrnie v. Town of Cromwell,
243 F.3d 93 (2d Cir. 2001).............................

36

Cabrera v. Jakabovitz,
24 F.3d 372 (2d Cir. 1994).............................

39

Chase Home Fin., LLC v. Kornitzer,
139 A.D.3d 784 (N.Y. 2d Dept. 2016)...........

21

Chertkova v. Connecticut General Life Ins. Co.,
822 A.2d 372 (Conn. App. Ct. 2003).............

. 30

Vlll

Clarke County School District v. Breeden,
532 U.S. 268 (2001)......................................

30, 33

Cohn v. Lionel Corp.,
21 N.Y.2d 559 (N.Y. 1968).........................

26

Cookv. Arrowsmith Shelburne, Inc.,
69 F.3d 1235 (2d Cir. 1995)......................

36

Dent v. West Virginia,
129 U.S. 114 (1889)......................................

20

Eggleston v. Gloria N.,
55 A.D.3d 309 (N.Y. 1st Dept. 2008) ....

21

Fischbach v. D.C. Dep’t of Corr.,
86 F.3d 1180 (D.C.Cir. 1996)....................

40

Fitzgerald u. Henderson,
36 F. Supp. 2d 490 (N.D.N.Y 1999).........

33

Furnco Constr. Corp. v. Waters,
438 U.S. 567 (1978)......................................

23

Grable & Sons Metal Products, Inc. u. Darue
Eng’g & Mfg., 545 U.S. 308 (2005)...........

1,2

Grannis v. Ordean,
234 U.S. 385 (1914)......................................

19, 21

Halbrook v. Reichhold Chemicals, Inc.,
735 F. Supp. 121 (S.D.N.Y. 1990)...........

36

Higginbotham v. Allwaste, Inc.,
889 S.W.2d 411 (Tex. App. 1994)..............

34

Hishon v. King and Spalding,

467 U.S. 69 (1984).................................

28

IX

In re Hammons,
438 F.Supp. 1143 (S.D. Miss. 1977),
rev’d on other grounds,
614 F.2d 399 (5th Cir. 1980)..............

25

In re Lewis,
845 F.2d 624 (6th Cir. 1988)..............

40, 41

Jacobs v. Universal Development Corp.,
53 Cal. App. 4th 692, 62 Cal. Rptr. 2d 446, 1997
Cal. App. LEXIS 151, 97 Cal. Daily Op. Service
1573, 12 I.E.R. Cas. (BNA) 1211, 97 Daily
Journal DAR 2277 ....................................
35
Joint Anti-Fascist Comm. v. McGrath,
341 U.S. 123 (1951)....................................

20

Lame v: United States Dep’t of Justice,
767 F.2d 66 (3d Cir. 1985)..................

25

Leibowits v. Leibowits,
93 A.D.2d 535 (N.Y.2d Dept. 1983) ....

21

Lucente v. International Business Machines
Corporation,
262 F. Supp. 2d 109 (S.D.N.Y. 2003). . .

25

Massachusetts Natl. Bank v. Shinn,
163 NY 360 (1900) .

22

Mathews v. Eldridge,
424 U.S. 319 (1976).

21

Matter of Barbara C.,
64 N.Y.2d 866 (1986)

21, 22

Matter of Peter L.,

59 N.Y.2d 513 (1983)

22

X

McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973)...........................

passim

Mesnick v. General Electric Co.,
950 F.2d 816 (1st Cir. 1991)...........

41

Morris v. Schroder Capital Mgmt. Int’l,
7 N.Y.3d 616 (2006)............. ..

30

Morris Plan Indus. Bank v. Finn,
149 F.2d 591 (2d Cir. 1945)...........

25

Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306 (1950).......................................... 19, 20
Owens v. New York City Hous. Auth.,
934 F.2d 405 (2d Cir.), cert, denied,
502 U.S. 964, 112 S.Ct. 431,
116 L,Ed.2d 451 (1991)......................................

36

Park of Edgewater v. Joy,
50 NY2d 946 (1980)..........................................

22

Phillips v. Commissioner,
283 U.S. 589 (1931).............................................

20

Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133 (2000). . . ......................................

36

Smith v. Brown-Forman Distillers Corp.,
196 Cal.App.3d 503 (1987)...............................

35

Stratton v. Department for the Aging for the City
of New York, 132 F.3d 869 (2d Cir. 1997) . . .

40

XI

Strozinsky v. School District of Brown Deer,
237 Wis. 2d 19, 614 N.W.2d 443, 2000 Wise.
LEXIS 441, 2000 WI 97, 16 I.E.R. Cas. (BNA)
879
34, 35
Sweeney v. Research Found, of State Univ. of
New York, 711 F.2d 1179 (2d Cir. 1983) . .

36

Tarshis v. Riese Organization,
211 F.3d 30 (2d Cir. 2000)...........................

36

Texas Dept, of Community Affairs u. Burdine,
450 U.S. 248 (1981)...................... 27, 28, 29, 38, 39
Trans World Airlines Inc. v. Thurston
469 U.S. Ill (1985).........................

23

Trans-Orient Marine Corporation v. Star
Trading & Marine, Inc.,
731 F. Supp. 619 (S.D.N.Y. 1990) ....

25

Turner u. Anheuser-Busch, Inc.,
7 Cal. 4th 1238, 876 P.2d 1022 (1994).

35

Tyler u. ReMax Mountain States, Inc.,
232 F.3d 808 (10th Cir. 2000)................

40

Watson v. Fort Worth Bank & Trust,
487 U.S. 977 (1988)..................................

29

Wolff v. McDonnell,
418 U.S. 539 (1974)..................................

20

Zimmerman v. Assocs. First Capital Corp.,
251 F.3d 376 (2d Cir. 2001)..................

36

Xll

CONSTITUTION
U.S. Const, amend. XIV

2, 3,4

STATUTES
28U.S.C. § 1257..............

1

28 U.S.C. § 1331..............

1

42 U.S.C. § 1981..............

4,5

42 U.S.C. § 2000e-2(a) . . .

28

OTHER AUTHORITIES
The Cambridge Dictionary, http://dictionary.
cambridge.org/us/dictionary/english/free-will. . 24
v

1
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the Denial of his appeal
to the Court of Appeals of the State of New York on
September 12, 2019.
OPINIONS BELOW
The September 12, 2019 decision without published
opinion from the Court of Appeals of New York denial of
motion to appeal can be found at Warshaw Burstein
Cohen Schlesinger & Kuh, LLP v. Longmire, 2019 N.Y.
LEXIS 2617, 33 N.Y.3d 914, 132 N.E.3d 649, 108
N.Y.S.3d 456, 2019 NY Slip Op 79329, 2019 WL
4383898.
The May 16, 2013 Appellate Division decision which
is contended can be found at Warshaw Burstein Cohen
Schlesinger & Kuh, LLP u. Longmire, 106 A.D.3d 536,
965 N.Y.S.2d 458, 2013 N.Y. App. Div. LEXIS 3487,
2013 NY Slip Op 3566,118 Fair Empl. Prac. Cas. (BNA)
852, 2013 WL 2096485.
BASIS FOR JURISDICTION IN THIS COURT
The statutory provision believed to confer on this
Court jurisdiction to review on a writ of certiorari the
judgment or order in question is 28 U.S.C. § 1257 and
U.S.C. § 1331. This matter rises from the highest court
in New York and presents questions of federal and U.S.
constitutional law.
In Grable & Sons Metal Products, Inc. v. Darue
Eng’g & Mfg., 545 U.S. 308 (2005), articulated a
standard for “arising under” jurisdiction over state law

2
claims with embedded federal issues that are careful,
narrowly drawn. The federal issue must be “actually
disputed and substantial,” and it must be one that the
federal courts can entertain without disturbing the
balance between federal and state judicial
responsibility. Id. at 314.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment XIV
Section 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective
numbers, counting the whole number of persons
in each state, excluding Indians not taxed. But
when the right to vote at any election for the
choice of electors for President and Vice
President of the United States, Representatives
in Congress, the executive and judicial officers of
a state, or the members of the legislature thereof,

3
is denied to any of the male inhabitants of such
state, being twenty-one years of age, and citizens
of the United States, or in any way abridged,
except for participation in rebellion, or other
crime, the basis of representation therein shall be
reduced in the proportion which the number of
such male citizens shall bear to the whole
number of male citizens twenty-one years of age
in such state.
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice
President, or hold any office, civil Or military,
under the United States, or under any state, who,
having previously taken an oath, as a member of
Congress, or as an officer of the United States, or
as a member of any state legislature, or as an
executive or judicial officer of any state, to
support the Constitution of the United States,
shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United
States, authorized by law, including debts
incurred for payment of pensions and bounties
for services in suppressing insurrection or
rebellion, shall not be questioned. But neither the
United States nor any state shall assume or pay
any debt or obligation incurred in aid of

4
insurrection or rebellion against the United
States, or any claim for the loss or emancipation
of any slave; but all such debts, obligations and
claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this
article.
42 U.S.C. § 1981
(a)

Statement of equal rights. All persons
within the jurisdiction of the United
States shall have the same right in every
State and Territory to make and enforce
contracts, to sue, be parties, give evidence,
and to the full and equal benefit of all laws
and proceedings for the security of persons
and property as is enjoyed by white
citizens, and shall be subject to like
punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and
to no other.

(b)

“Make and enforce contracts” defined. For
purposes of this section, the term “make
and enforce contracts” includes the
making, performance, modification, and
termination of contracts, and the
enjoyment of all benefits, privileges,
terms, and conditions of the contractual
relationship.

5
(c)

Protection against impairment. The rights
protected by this section are protected
against impairment by nongovernmental
discrimination and impairment under
color of State law.
STATEMENT OF THE CASE
A. Petitioner’s Background

Petitioner’s father is African-American, and his
mother is Caucasian. R. 183. Petitioner has a B.A. in
Economics and an M.B.A. from Stanford University.
R. 1805. In his application for admission to the Stanford
Graduate School of Business, Petitioner identified
himself as black. Id. Moreover, in his Complaint filed
with the New York State Division of Human Rights (the
“SDHR”), Petitioner described himself as black.
Complaint dated Feb. 3, 1995; R. 184. In fear of
judgment on Wall Street, Petitioner self-identified as
“white” at his place of employment. R. 1805. Petitioner
kept his racial background closely guarded in his
professional life and did not disclose his race to any
“white” person on Wall Street. R. 1805.
B. Petitioner’s Employment at WPMC
In 1991, Petitioner accepted a job with Wyser-Pratte
Management Co., Inc. (“WPMC”), a Wall Street hedge
fund. R. 185. Petitioner began as a Research Analyst
with a starting salary of $85,000, plus incentive
compensation of 7.5%. R. 186. His initial supervisor,
Phoebe Yen — Director of Research, received a base
salary of $95,000, plus incentive compensation of 10%.
R. 2900. Shortly after beginning his employment at
WPMC, Petitioner informed Guy Wyser-Pratte (“GWP”),

6
the owner and manager of WPMC, of his racial identity
to curb GWP’s and others distasteful and offensive
racial epithets. R. 1807.
During his employment at WPMC, Petitioner was an
exemplary employee. In fact, Petitioner became the only
person at WPMC, outside of the owner, who possessed
investment decision-making responsibilities. Id.
Additionally, Petitioner became WPMC’s most senior
employee. Id. During his time at WPMC, Petitioner had
earned an average of more than $420,000 per year and
$5.5 million in total. R. 1814.
However, despite his seemingly excellent workperformance, Petitioner was the victim of racial
discrimination. For instance, WPMC employees would
play guessing games and attempt to categorize and
stereotype Petitioner and his family during company
gatherings. R. 2902. This sort of conduct rose to a level
that forced Petitioner to boycott all company social
events with his family. R. 2903.
Petitioner made several attempts to get his Series 7
Registration with the NASD. R. 2906. However,
Petitioner never could obtain Series 7 Registration
because GWP refrained from sponsoring him for the
Series 7 examination. Id. Unfortunately, GWP never
articulated a reason for refusing to sponsor Petitioner.
Id.
Additionally, Petitioner was underpaid. Id. GWP’s
wife, and a WPMC employee, told Petitioner that he
was paid less than he otherwise would have because
GWP could get away with paying Petitioner less. Id.
The basis for this notion was grounded in racism given .

7
that Petitioner’s race serves as an impediment to his
likelihood of finding employment elsewhere on Wall
Street, GWP could pay him less than his white
counterparts. Id. GWP admitted to making these
remarks this in his deposition. Id.
During his employment, WPMC did not employ any
black professionals in permanent positions other than
Petitioner. R. 2905. Interestingly in WPMC’s EEOC
Statement, WPMC did not claim white consultants as
employees, but attempted to do so with their black
consultants. In fact, GWP informed Petitioner that
blacks did not project the appropriate Wall Street
image. Id.
Moreover, GWP demanded that Petitioner commit
perjury in a divorce proceeding between GWP and his
then-wife, Vivian. R. 1809-1810. Vivian was prepared to
expose GWP’s guilt pertaining to an SEC insider
trading investigation relating to put-options in Telxon
Corp. Id. Despite admitting to Petitioner that he traded
on inside information to avoid over $20 million in losses,
GWP demanded that Petitioner testify falsely to protect
GWP’s reputation and wealth. R. 1810-1811. GWP did
not request this from any white employees. R. 1811.
Once Petitioner refused to commit perjury, GWP
doubled down and told Petitioner he would “go down”
unless he complied. R. 1811. On January 9, 2004, GWP
threatened Petitioner by stating: “If you don’t testify the
way I want you to, I’m going to ‘out’ you. If you don’t lie
for me, you’re dead. Think of your family.” R. 1812.
Petitioner perceived this to mean that GWP would
reveal his true race to all of his co-workers and subject

8
his family to further ridicule. R. 1812. Notably, this was
the last time GWP and Petitioner spoke. R. 1812.
GWP refused to communicate with Petitioner about
business and investments. R. 1812. Petitioner decided
it was appropriate to complain to WPMC’s Chief Legal
Officer, Kurt Schacht. Id. Schacht refused to get
involved and suggested that Petitioner hire independent
counsel. R. 1812-13. Schacht further directed Petitioner
to work remotely while still receiving his salary.
R. 1813. Given that GWP refused to speak with
Petitioner and Schacht was Chief Legal Counsel,
Petitioner believed Schacht was authorized to give
Petitioner such orders. Id. GWP, in his deposition,
admitted that Schacht had the authority to do so.
R. 2456-57. Subsequently, Petitioner began working
from home. R. 18113-14.
WPMC kept paying Petitioner’s salary through the
end of January 2004. R. 1814. However, that came to a
halt in February. Id. Soon thereafter, Petitioner learned
that he was terminated and was removed from WPMC’s
medical plan because he was a “former employee.”
R. 1814; 1857. .
Longmire’s attorney complained to WPMC about the
termination on January 31, 2004, and in March 2004,
WPMC reinstated Longmire on the payroll. R.1815,
2481-82. Although Longmire was not permitted to
return to the office, Longmire was advised by his
attorney that WPMC had “rehired”1 him. R. 1815. At
1 However, the evidence that Warshaw missed shows that in
March 2004 Longmire was not an employee of WPMC, that
Longmire was not reinstated to his former positions and that his

9
month end, however, and again without explanation or
warning, WPMC terminated Longmire’s from its payroll
effective March 30, 2004. R. 1815. WPMC’s attorney
later wrote to the Department of Labor a letter stating
that she had been assigned to deal with the matter of
his “employment termination.” R. 3412.
C. Petitioner’s Employment Discrimination
Suit Against His Former Employer
On July 26, 2005, Petitioner brought an action
against GWP and WPMC in the United States District
Court for the Southern District of New York alleging
employment discrimination. R. 1870-1897. Respondent
through Mr. Lew and Mr. Lee represented Petitioner in
the matter. Id.
Petitioner’s Second Amended Complaint (SAC) in the
discrimination suit included allegations that were the
basis of his lawsuit. R. 1949-76.
1. Discriminatory work assignment and racial
profiling: Because of his race, GWP required
Petitioner to commit perjury at GWP’s divorce
proceedings regarding SEC insider trading
investigations. R. 1963-66, 1970-72.
2. Discriminatory discharge on January 31, 2004.
R. 1963, 1967-72.
3. Discriminatory termination on March 30, 2004.
R. 1963, 1967-72.

replacement, Adam Treanor, still worked at WPMC in Longmire’s
former position as Director of Research. (See WPMC’s EEOC
Statement, employee roster).

10
Importantly, Petitioner detailed the racial remarks by
GWP and established that he was terminated and
replaced by Adam Treanor, a white male. R. 1949-1976;
1952, 1969-70. In GWP’s and WPMC’s answer, they
admitted to all of the allegations in the SAC, except for
one. R. 1979, 1986-87. Petitioner’s former employer
insisted that Petitioner abandoned his job in January
2004. R. 1814.
On October 6, 2006, GWP and WPMC filed a motion
for summary judgment. R. 2552-2897. In their motion,
which was supposed to address the entire action,
WPMC and GWP neglected to address the
discriminatory termination claim. R. 2869-2897.
Respondent improperly informed Petitioner that the
aforementioned motion for summary judgment was
limited to the claims addressed and discussed by
WPMC. R. 1822. In Respondent’s reply to WPMC’s and
GWP’s motion for summary judgment, Respondent
argued that Petitioner was terminated twice. R. 29132921. However, Respondent did not cite any evidence or
cite any supporting case law pertaining to
discriminatory termination. R. 575-602.
Perhaps most alarming, Respondent did not include
the fact that WPMC and GWP admitted Petitioner was
qualified for the position and was terminated and
replaced by a white person. R. 3329-3333; R. 1824.
Notably, Respondent did not mention the landmark case
McDonnell Douglas and its framework at all in the
summary judgment stage. R. 575-602. In September
2007, the District Court ruled in favor of WPMC and
GWP. R. 3351-86. Significantly, the District Court noted

11
that Petitioner was terminated twice from his
employment. R. 3363-3364.
Subsequently, an appeal was filed. Although
Respondent did not cite McDonnell Douglas nor assert
any contentions against discriminatory discharge at the
summary judgment stage, Respondent raised the issue
on appeal. R. 3400. After admitting their mishandling
of the case and abandonment of the discriminatory
termination claim, the firm relieved themselves as
Petitioner’s counsel in September 2008. R. 1827-28;
R. 3404-10.
Since the central issues of his discrimination case,
particularly that his termination on January 31, 2004
was discriminatory, were abandoned by Respondent and
not ripe for appeal, Petitioner was forced to engage in
settlement negotiations with his former employer.
R. 1828. Petitioner retained new counsel in the
continued negotiations. Id. On December 8, 2008,
Petitioner entered into a settlement agreement with
GWP and WPMC. R. 236-249. Petitioner also took the
settlement because he believed that he had very little
chance of succeeding in the appeal because of
Respondent’s failure to oppose summary judgment
properly. In other words, Respondent failed to preserve
his claims for discriminatory termination for appellate
review.
Tragically, Petitioner has not been able to secure
employment in his field since being terminated by
WPMC, and his only income stems from his settlement
agreement. R. 1829.

12
D. Respondent’s suit for legal fees and
Petitioner’s legal malpractice counterclaim
Warshaw Burstein Cohen Schlesinger & Kuh, LLP
(“Warshaw” or “Respondent”) brought an action to
recover unpaid legal fees on November 25, 2009. R. 254258. Soon thereafter on February 8, 2010, Petitioner
asserted counterclaims for legal malpractice and breach
of contract. R. 260-271.
The basis of Petitioner’s counterclaim was that
Respondent was responsible for the fact that the federal
judge dismissed his viable claim for discriminatory
termination on January 31s 2004. Petitioner alleged
that Respondent committed legal malpractice because
they failed to defend his claim for discriminatory
termination on January 31, 2004, by using the
evidentiary path that the McDonnell Douglas path
opened up. This evidentiary path clearly points in one
direction: because of the fact that Petitioner can
establish his prima facie case for discriminatory
termination on January 31, 2004, and because of the
fact that the WPMC and GWP defaulted on their
burden of production, as a matter of law judgment must
be entered in favor of Petitioner, if a jury believes that
he was terminated.
On August 26, 2011, Warshaw moved to dismiss
Petitioner’s counterclaim for malpractice on the ground
that Petitioner’s counterclaim is barred by documentary
evidence and fails to state a cause of action.
Respondent submitted Mr. Lee’s sworn testimony in
the form of an Affidavit in Support of Motion to Dismiss
Defendant’s Counterclaim dated August 25, 2011, and

13
in the form of a Reply Affidavit in Support of Motion to
Dismiss Defendant’s Counterclaim dated November 14,
2011.
Respondent also submitted Mr. Lew’s
Memorandum of Law in Support of Plaintiff’s Motions
to Dismiss First Counterclaim dated August 26, 2011.
In his Affidavit in Support of Motion to Dismiss
Defendant’s Counterclaim, Mr. Lee testified as follows:
Although Longmire now claims that his so-called
“discriminatory termination claim” was his
“primary claim” in the case (see Counterclaim, .
paragraph 21), all of the documentary evidence
shows that not only was this not the primary
claim, it was not even a secondary claim. (See
Lee Affidavit in Support of Motion to Dismiss
Defendant’s Counterclaim, paragraph 46, page
ID
In his Memorandum of Law in Support of Plaintiff’s
Motions to Dismiss First Counterclaim dated August 26,
2011, Mr. Lew wrote that “[although Longmire now
claims that his so-called “discriminatory termination
claim” that he was fired because of his race was the
primary claim in the case (see Counterclaim, paragraph
21), as set forth in the Lee Affidavit, all of the evidence
shows that not only was this not the primary claim, it
was not even a secondary claim.”
(See Lew
Memorandum of Law in Support of Plaintiff’s Motions
to Dismiss First Counterclaim, page 10). In his Reply
Affidavit in Support of Motion to Dismiss Defendant’s
Counterclaim dated November 14, 2011, Mr. Lee
testified as follows:

14
22.
The first point, failing to raise plaintiffs
purportedly discriminatory termination claim in
the context of McDonnell Douglas Corp. v. Green,
is wrong because (a) discriminatory termination
was not Longmire’s claim....
[...]
While Longmire does not, and cannot
43.
dispute that the documentary evidence submitted
on Warshaw Burstein’s motion (including his
own written admissions) is genuine and accurate,
he asks the Court to ignore such documentary
evidence in which he himself sets for what he
wanted his claim to be from the outset — and it
was never the so-called “discriminatory
termination claim.”
44.
Thus “discriminatory termination” could
not have been his primary claims as this was
never even alleged as a claim in the complaint or
in its successive amendments.
46.
Longmire made no response to our
presenting his own voluminous e-mails which
were annexed as Exhibit 27 through 45 to my
moving affidavit because he simply cannot
controvert his own words. Those words clearly
demonstrate that before his case was dismissed,
neither plaintiff nor Longmire ever considered
the claim, of being fired because he was biracial
as one of Longmire’s claims at all, much less as
his so-called “primary claim.”
(See Reply Affidavit in Support of Motion to Dismiss
Defendant’s Counterclaim paragraphs 22, 43, 44 and
46)(Emphasis in original)

15
In the documents that Respondent submitted to the
court, Respondent argues that Longmire’s legal
malpractice counterclaim is a phony claim that
Petitioner “cooked up” in order to somehow defraud
Respondent out of $268,380.30, plus interest thereon for
attorney’s fees and disbursements that they alleged he
owed to Respondent. In his Affidavit in Support of
Motion to Dismiss Defendant’s Counterclaim, Mr. Lee
stated the following in relevant respect:
70.
Thus it is apparent that Longmire is now
rewriting history by again making up new
claims in an effort to concoct a legal
malpractice claim to avoid having to pay his
considerable overdue legal fees to Plaintiff.
(Emphasis added) (See Mr. Lee’s Affidavit in
Support of Motion to Dismiss Defendant’s
Counterclaim, paragraph 71, page 18).
In his Reply Affidavit in Support of Motion to
Dismiss Defendant’s Counterclaim, Mr. Lee stated the
following in relevant respect:
73.
We implore the Court, please to dispense
with this — if I may be forgiven the vernacular —
“phony” counterclaim and not be burdened with
a huge amount of additional legal work in order
to obtain the fees which have been denied our
firm for so very many years.
(See Reply Affidavit in Support of Motion to Dismiss
Defendant’s Counterclaim, paragraph 73, page 21)
In his Memorandum of Law in Support of Plaintiff’s
Motions to Dismiss First Counterclaim, Mr. Lew wrote
the following in relevant respect:

16
Warshaw Burstein Cohen Schlesinger & Kuh,
LLP (“Warshaw Burstein” or “plaintiff’), in this
action to recover its legal fees and disbursements,
submits this memorandum, together with the
accompanying affidavit of Martin R. Lee, Esq.
(“Lee Aff.”), in support of its motion, pursuant to
CPLR 3211(a)(1), to dismiss the first of two
counterclaims that defendant Eric A. Longmire
(“defendant” or “Longmire”) has asserted against
plaintiff, alleging legal malpractice, wherein the
demanded an undetermined amount to be
determined at trial.
[...]
This is a garden-variety .action for recovery of
legal fees owed by a client to his attorneys. In
response to plaintiffs complaint, defendant has
pleaded two patently frivolous counterclaims, i.e.,
for legal malpractice and breach of contract —
representing a transparent attempt by defendant
to intimidate plaintiff into withdrawing its
complaint, thereby allowing defendant to escape
his contractual obligation to pay the legal fees he
incurred. Each of his counterclaims is entirely
without merit. The instant motion addresses the
first of these two counterclaims and argues that,
as a matter of law, it must be dismissed.
1. Supreme Court of New York
Sua sponte and without notice to Petitioner, and
without giving him the opportunity to respond
beforehand, the Supreme Court of New York cited the
follow reasons for denying his counterclaims.

17
1. Longmire could not establish the fourth element
of his prima facie case for discriminatory
termination because . .assuming that Longmire
was terminated..., the circumstances
surrounding his termination, as found by the
federal court and reflected in the record, did not
give rise to an inference of discrimination.”
2. GWP sustained his burden of production because
he had “articulated a nondiscriminatory reason
for [Longmire’s] termination, which was that he
believed that Longmire quit or abandoned his
position when he left on January 22, 2004.”
3. The burden shifted to Longmire to show pretext,
which he could not do because “Longmire’s
unsupported claims are insufficient to show both
that the stated reason for his termination was
false and the real reason was discrimination”.
The court stated that it assumed that Longmire was
terminated, and it recognized that “Longmire asserts
that he did not resign...” R. 25.
The motion court went through all three steps of the
McDonnell Douglas burden shifting framework. In the
first step, the motion court skipped the third element
(adverse employment actions) proceeded directly to the
fourth element (circumstances giving rise to an
inference of discrimination) of the prima facie case for
discriminatory termination, where it found that
Longmire could not establish the fourth element of his
prima facie case for discriminatory termination because
“...the circumstances surrounding his termination, as

18
found by the federal court and reflected in the record,
did not give rise to an inference of discrimination.”
The motion court then proceeded to the second step
(production) and found that GWP “articulated a
nondiscriminatory reason for [Longmire’s] termination,
which was that he believed that Longmire quit or
abandoned his position when he left on January 22,
2004.”
Finally, the motion court proceeded to the third step
(pretext) and found that “Longmire’s unsupported
claims are insufficient to show both that the stated
reason for his termination was false and the real reason
was discrimination”.
2. Appellate
Division,
First
Department, Supreme Court of
New York
On May 3, 2012, Petitioner filed an appeal to the
Appellate Division of the Supreme Court of the State of
New York (First Department).
Sua sponte and without notice to Petitioner, and
without providing him an opportunity to respond, the
Appellate Division denied Petitioner’s appeal and
concluded that Petitioner could not have established a
prima facie case of race-based discrimination reasoning
that Petitioner testified in the underlying suit that he
voluntarily left his employment and that Petitioner
alleged that if he was terminated, it was because he
failed to commit perjury and not his race.

19
i. Referee’s Report
After a court-ordered Referee investigation, the
Referee published a report. DCD 440. In the report the
referee recommended that the court find Petitioner not
liable for legal fees to Respondent. DCD 440. Soon
thereafter, Respondent moved to have the Report
disregarded. Importantly, during the trial on November
27, 2012, Respondent through Mr. Lee admitted to
having enough information to make out a case for
employment discrimination and that Petitioner was in
fact terminated. DCD 460.
3. State of New York Court of Appeals
Petitioner moved for leave to appeal to the New York
Court of Appeals on June 6, 2019. DCD 645. On
September 12, 2019, the court denied the motion
without an opinion. DCD 655.
This Petition for Writ of Certiorari followed.
REASONS TO GRANT THIS PETITION
I.

THE APPELLATE DIVISION’S ACTIONS
VIOLATED
PETITIONER’S
CONSTITUTIONAL RIGHTS TO DUE
PROCESS.
ACCORDING TO THE U.S.
SUPREME COURT

“The fundamental requisite of due process of law is
the opportunity to be heard.” Grannis v. Ordean, 234
U.S. 385, 394 (1914). And the “right to be heard has
little reality or worth unless one is informed that the
matter is pending and can choose for himself whether to
appear or default, acquiesce or contest,” Mullane v.

20
Central Hanover Bank & Trust Co., 339 U.S. 306 (1950).
But we have also clearly recognized that the Due
Process Clause does prescribe a constitutional
minimum:
“An elementary and fundamental requirement of
due process in any proceeding which is to be
accorded finality is notice reasonably calculated,
under all the circumstances, to apprise interested
parties of the pendency of the action and afford
them an opportunity to present their objections.”
Mullane, 339 U.S. at 314. It is against this
standard that we evaluate the procedures
employed in this case.
Procedural due process imposes constraints on
governmental decisions which deprive individuals of
“liberty” or “property” interests within the meaning of
the Due Process Clause of the Fifth or Fourteenth
Amendment. This Court consistently has held that
some form of hearing is required before an individual is
finally. deprived of a property interest. Wolff v.
McDonnell, 418 U.S. 539, 557-558 (1974). See e.g.,
Phillips v. Commissioner, 283 U.S. 589, 596-597 (1931).
See also Dent v. West Virginia, 129 U.S. 114, 124-125
(1889). The “right to be heard before being condemned
to suffer grievous loss of any kind, even though it may
not involve the stigma and hardships of a criminal
conviction, is a principle basic to our society.” Joint
Anti-Fascist Comm. v. McGrath, 341 U.S. 123, 168
(1951) (Frankfurter, J., concurring).
The fundamental requirement of due process is the
opportunity to be heard “at a meaningful time and in a
meaningful manner.” Armstrong v. Manzo, 380 U.S.

21
545, 552 (1965). See also Grannis v. Ordean, 234 U.S.
385, 394 (1914). Significantly, “the Supreme Court has
held that actions by appellate courts constitute
governmental actions that are subject to these due
process guarantees ."Mathews v. Eldridge, 424 U.S. 319,
333 (1976).
Not surprisingly, sua sponte orders have been
reversed as a deprivation of due process where a party
had no notice, and thus no opportunity to be heard, that
such an order was under consideration. See Eggleston
v. Gloria N., 55 A.D.3d 309 (N.Y. 1st Dept. 2008); Chase
Home Fin., LLC v. Kornitzer, 139 A.D.3d 784 (N.Y. 2d
Dept. 2016) (“The sua sponte dismissal of the
complaint...without affording the plaintiff any notice
and opportunity to be heard, was imp roper... and
amounted to a denial of the plaintiffs due process
rights.”); Brody v. Brody, 98 A.D.2d 702 (N.Y. 2d Dept.
1983) (“[The] sua sponte stay was in violation of
plaintiffs due process rights, as she was never notified
that such an order was under consideration.”); Leibowits
v. Leibowits, 93 A.D.2d 535 (N.Y.2d Dept.. 1983).
Moreover, this court held in Mathews v. Eldridge, 424
U.S. 319,333 (1976) that the “fundamental requirement
of due process is the opportunity to be heard at a
meaningful time and in a meaningful manner.”
The Appellate Division’s actions, the laws of New
York State and the rules of the Court of Appeals have
operated to deny Petitioner’s constitutional right to due
process. According to the laws of New York State and
the rules of the Court of Appeals, constitutional
arguments have to be preserved and cannot be made for
the first time with the Court of Appeals. See Matter of

22
Barbara C., 64 N.Y.2d 866, 868 (1986); Matter of Peter
L., 59 N.Y.2d 513, 519(1983); The New York Court of
Appeals Civil Jurisdiction and Practice Outline,
prepared by the Clerk’s Office, New York Court of
Appeals, states the following:
The general rule requires that constitutional
questions be raised at the first available opportunity as
a prerequisite to review in the Court of Appeals. See e.g.
Matter of Barbara C. There is some indication that the
Court may make an exception to this doctrine and
examine a constitutional issue raised for the first time
in the Court of Appeals if the issue implicates grave
public policy concerns. See Park of Edgewater v. Joy, 50
NY2d 946, 949 (1980) citing Massachusetts Natl. Bank
v. Shinn, 163 NY 360, 363 (1900).
Now, before this Court, for the first time the
opportunity has presented itself for Petitioner to raise
this constitutional question. As discussed above, the
Appellate Division made its decision to dismiss
Petitioner’s appeal sua sponte and without notice to
Petitioner, and without giving him the opportunity to
respond. Therefore, the Appellate Division did not give
Petitioner the opportunity to raise for the first time
with the Appellate Division the constitutionality of its
decision to dismiss his appeal sua sponte and without
notice to him, and without giving him the opportunity
to respond. As a result, Petitioner did not have the
opportunity to preserve this constitutional argument,
which, in turn, prevented him as a matter of law from
raising for the first time this constitutional argument
with the Court of Appeals.

23
As discussed below, the McDonnell Douglas
framework provides Petitioner with the evidentiary
path that leads to the inevitable conclusion: as a matter
of law judgment must be entered in Petitioner’s favor,
if a jury believes that he was terminated on January 31,
2004. The Appellate Division’s actions deprived
Petitioner of his constitutional right to have his “day in
court” and follow this evidentiary path. In Trans World
Airlines Inc. v. Thurston, 469 U.S. Ill (1985) the
Supreme Court recognized that the McDonnell Douglas
method of proof was “designed to assure that the
‘plaintiff [has] his day in court despite the
unavailability of direct evidence.’” The rationale
supporting the method is that “experience has proved
that in the absence of any other explanation it is more
likely than not that [the adverse employment actions]
were bottomed on impermissible considerations.”
Furnco Constr. Corp. v. Waters, 438 U.S. 567, 580
(1978).
II.

THE APPELLATE DIVISION AND COURT
OF APPEALS ERRED IN DISMISSING
PETITIONER’S CLAIM FOR LEGAL
MALPRACTICE AGAINST RESPONDENT.

The Appellate Division’s finding that Petitioner
“testified in the underlying suit that he voluntarily left
his former employment” does not prevent Petitioner
from arguing what he argued to the Appellate Division,
namely that judgment must be entered in his favor on
his claim of discriminatory termination if a jury believes
that he was terminated on January 31, 2004.
Importantly, there is no evidence that suggests
Petitioner voluntarily left WPMC. In fact, the record

24
makes clear the Petitioner continuously maintained
that he was terminated. See R. 1814. In Petitioner’s
exchange with GWP’s counsel, Petitioner asserted he
was terminated. R. 291.
There is no testimony from Petitioner in which
Petitioner testified that he “g[a]ve up employment.”2 As
stated below, Petitioner consistently testified by
uttering the words “terminated”, “termination”, and
“post-termination”. Petitioner alleged that “[He] was
terminated from [his] job at WPMC in 2004 because of
the discrimination of [his] former employer....”
Furthermore, there is no testimony where Petitioner
testified, with respect to the events on January 22,
2004, that he was acting “of [his] free will.” To the
contrary, Petitioner testified that he was acting because
GWP had pressured him to commit the crime of perjury.
This testimony proves that Petitioner was not acting “of
[his] free will” but because of outside pressure from his
supervisor to commit the crime of perjury. Importantly,
GWP did not ask any of Petitioner’s white counterparts
to commit perjury. Instead, GWP attempted to leverage
Petitioner’s race against him knowing that if he refused,
Petitioner would be left jobless.

2 The legal definition of “voluntary quit” is to ‘“give up employment’
‘of one’s free will’” and the definition of “[resignation” is “[t]he
act... of surrendering or relinquishing an office.” The Cambridge
Dictionary defines “free will” as, “the ability to act and take choices
independent of any outside influence” (See,
http://dictionary.cambridge.org/us/dictionary/english/free-will).
Therefore, the legal definition of “voluntarily quit” had two
components: (1) the “give up employment” component; and (2) the
“of one’s free will” component. Id. Airgas Specialty Gases Inc. v.
Kumar, 466 Fed. Appx. 41 (2d Cir. 2012)

25
Therefore, if the Appellate Division’s finding is that
Petitioner “testified in the underlying suit that he
voluntarily left his former employment”, then the
Appellate Division’s finding is in error, because it is
contrary to the only sworn testimony that Petitioner
presented, namely that he was terminated, and because
the Appellate Division’s finding lacks any evidentiary
support and is against the clear weight of the evidence.
See Trans-Orient Marine Corporation u. Star Trading
& Marine, Inc., 731 F. Supp. 619 (S.D.N.Y. 1990) noting
“If a finding is directly contrary to the only testimony
presented, it is properly considered to be clearly
erroneous.); See also Morris Plan Indus. Bank v. Finn,
149 F.2d 591, 592 (2d Cir. 1945); In re Hammons, 438
F.Supp. 1143, 1149 (S.D.Miss.1977), rev’d on other
grounds, 614 F.2d 399 (5th Cir. 1980); see also Lame v.
United States Dep’t of Justice, 767 F.2d 66, 70 (3d
Cir. 1985) (factual findings clearly erroneous if
unsupported by substantial evidence, lack adequate
evidentiary support, or against clear weight of
evidence).”
By finding that Petitioner testified at his deposition
that he voluntarily quit, the Appellate Division erred
because it resolved the central dispute in this case,
whether or not Petitioner was terminated, whether
actually or constructively, and it resolved this dispute
in favor of GWP, WPMC, and the Respondent. In doing
so, the Appellate Division improperly usurped the jury’s
province as fact-finder. In Lucente v. International
Business Machines Corporation, 262 F. Supp. 2d 109
(S.D.N.Y. 2003), the court held that when “finding that
plaintiff had been involuntarily terminated by IBM ...

26

the district court resolved numerous factual
discrepancies in plaintiffs favor. In so doing, the court
usurped the jury’s province as fact-finder.”
The Appellate Division’s finding that Petitioner
alleged that if he was terminated, it was because he
failed to commit perjury and not his race is in error for
the following reasons. First, in New York State, it is
well settled law that “[ujndeniably, a plaintiff is entitled
to advance inconsistent theories in alleging a right to
recovery.” Cohn v. Lionel Corp., 21 N.Y.2d 559, 563
(N.Y. 1968) Therefore, if Mr. Lee and Mr. Lew alleged
in Petitioner’s SAC that he was terminated because he
failed to commit perjury and not his race, then as a
matter of law Mr. Lee and Mr. Lew were also permitted
to allege and did in fact allege that Petitioner was
terminated on January 31, 2004 because of his race.
Second, the notion that Petitioner was terminated
because he refused to commit perjury does not mean
that there was no discrimination in his termination on
January 31, 2004. If GWP viewed Petitioner as an
“uppity nigger” because he refused to commit perjury,
then his termination on January 31, 2004 was
discriminatory.
Third, there is absolutely no evidence in the record
that GWP and WPMC terminated Petitioner because he
refused to commit perjury and not because of his race.
Significantly, GWP and WPMC never provided any such
evidence because they never gave any reason
whatsoever as to why they terminated Petitioner on
January 31, 2004. Furthermore, Petitioner did not
provide any such evidence because he has none. As
discussed above, Petitioner was working from home

27
when he learned secondhand that he was terminated.
Therefore, Petitioner was not even around GWP to
witness his mental process when he decided to
terminate Petitioner on January 31, 2004.
Finally, by finding that Petitioner alleged that if he
was terminated, it was because he failed to commit
perjury and not his race, the Appellate Division resolved
the central dispute in this case, whether or not
Petitioner’s termination on January 31, 2004 was
because of his race, and it resolved this dispute in the
favor of GWP, WPMC, and the Respondent. In doing so,
the Appellate Division again improperly usurped the
jury’s province as fact-finder.
III.

AS A MATTER OF LAW JUDGMENT MUST
BE ENTERED IN FAVOR OF PETITIONER,
IF A JURY DECIDES HE WAS
TERMINATED,
ACTUALLY
OR
CONSTRUCTIVELY
A. The evidence proves that petitioner
unequivocally established a prima facie
case of employment discrimination
against his former employer if not for
Respondent’s negligence.

In McDonnell Douglas Corp. v. Green, 411 U.S. 792,
802-03 (1973), this Court established the burdenshifting framework for disparate treatment claims. See
also Texas Dep’t of Community Affairs v. Burdine, 450
U.S. 248, 252-56 (1981). First, the plaintiff must
establish a prima facie case of employment
discrimination. Second, the defendant is required to
articulate a legitimate non-discriminatory reason for

28
the adverse employment action. Lastly, the plaintiff
must show that the defendant’s proffered legitimate
non-discriminatory reason for the adverse employment
action was pretextual. As noted in Hishon v. King and
Spalding, it is unlawful for an employer to take adverse
employment actions because of a plaintiffs protected
trait. 467 U.S. 69, 73 (1984); See also 42 U.S.C.
§ 2000e-2(a) “It shall be an unlawful employment
practice for an employer— (1) to fail or refuse to hire or
to discharge any individual, or otherwise to
discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of
employment, because of such individual’s race, color,
religion, sex, or national origin.”
To establish a prima facie case through McDonnell
Douglas, Petitioner must show (1) he is a member of a
protected class; (2) he was qualified to hold and
satisfactorily performed the duties of his position;
(3) despite satisfactory performance, he was terminated;
and (4) the position was opened and ultimately filled by
someone outside of his protected class. McDonnell
Douglas, 450 U.S. at 802-03. Alternatively, a plaintiff
may satisfy the fourth requirement to make out a prima
facie case by showing that the discharge occurred in
circumstances giving rise to an inference of unlawful
discrimination. Id.
Significantly, “ [i] f the trier of fact believes the
plaintiff s evidence, and if the defendant is silent in the
face of the presumption of discrimination, judgment
must be entered for plaintiff because no issue of fact
remains in the case.” Burdine, 450 U.S. at 254. The

29
Supreme Court stated in Watson v. Fort Worth Bank &
Trust:
The defendant then knows that its failure to
introduce evidence of a nondiscriminatory reason
will cause judgment to go against it unless the
plaintiffs prima facie case is held to be
inadequate in law or fails to convince the
factfinder. It is this practical coercion which
causes the McDonnell Douglas presumption to
function as a means of ‘arranging the
• presentation of evidence,’ Watson v. Fort Worth
Bank & Trust, 487 U.S. 977, 986 (1988).
It is undisputed that Petitioner is a member of a
protected class. Therefore, the first prong of McDonnell
Douglas is satisfied. Second, WPMC and GWP never
disputed Petitioner’s qualifications. Moreover, as the
evidence suggests, Petitioner was exemplary at his job.
Petitioner was one of the most senior employees at
WPMC, and his compensation reflects his outstanding
workplace achievements.
As for the third prong, during WPMC’s and GWP’s
motion for summary judgment, Respondent provided
enough evidence for a federal judge to determine that
Petitioner was terminated. As a result, the third
element of McDonnell Douglas is satisfied. Moreover,
Respondent’s demand in paragraph 149 of the SAC
includes a demand for “...salary, bonus, medical and
fringe benefits he would have earned up to and
including the date of normal retirement....” The nature
of these items demanded can only have come about
because Petitioner was terminated.

30
Even if this Court, despite the overwhelming
evidence, determines that Petitioner was not fired,
Respondent’s testimony through Mr. Lee at the fee trial,
among other things, unequivocally proves that
Petitioner was constructively discharged and did not
leave his job under his own volition or “free will”. (See
Morris v. Schroder Capital Mgmt. Int’l, 7 N.Y.3d 616
(2006), “Federal courts created the constructive
discharge test in the context of employment
discrimination cases for determining whether the
employee’s resignation was “voluntary.”) Therefore, no
matter if Petitioner was terminated or constructively
discharged, he can establish a prima facie employment
discrimination case. (See Chertkova v. Connecticut
General Life Ins. Co., 822 A.2d 372 (Conn. App. Ct.
2003) “One of the elements of a prima facie case of
discriminatory discharge, as one might expect, is that
the employee was discharged.... This element may be
satisfied by a showing of an actual or a constructive
discharge.”) Here constructive discharge can be proven
by the humiliation WPMC, GWP and its employees
subjected Petitioner too and the unbearable work
environment they fostered. To establish an abuse
workplace, one must examine the totality of
circumstances, the frequency, the severity, whether the
conduct is humiliating or mere offense utterance and if
the plaintiffs work performance was unreasonably
interfered with. Clarke County School District v.
Breeden, 532 U.S. 268 (2001).
During their motion for summary judgment, GWP
and WPMC offered the Affidavit of Kurt N. Schacht,
Esq. in Support of Motion, dated October 9, 2006, that
describes Petitioner’s working conditions and state of

31
mind just prior to when Petitioner “left” the office.
R. 3509. Mr. Schacht’s affidavit proves that if Petitioner
quit, then he quit in order to escape intolerable
employment requirements.
Mr. Schacht’s affidavit proves that Petitioner
complained to him about his intolerable working
conditions. As an initial matter, the evidence proves
that Mr. Schacht was the appropriate executive at
WPMC with whom to lodge complaints. During
WPMC’s motion for summary judgment, in Mr.
Schacht’s affidavit, he testified that “[f]rom May 2001
until March 2004, I was employed at Wyser-Pratte
Management Co., Inc. (‘Wyser-Pratte’), where I held the
titles, among others, of Chief Administrative Officer,
Chief Compliance Officer and Chief Legal Officer.
When I started, I was party to an employment contract
dated May 14, 2001.” Affidavit of Kurt N. Schacht, Esq.
in Support of Motion.
Significantly, Mr. Schacht’s employment contract
proves that in effect Mr. Schacht was WPMC’s human
resources department and that it was his job at WPMC
to address Petitioner’s complaints about his intolerable
work conditions.
According to Mr. Schacht’s
employment contract, Section 4.2 entitled “General
Specification of Duties,” Mr. Schacht had the following
duties, among others:
Executive’s duties shall include, but not be
limited to, the duties and performance goals as
follows:
4.2.3 employ, pay, supervise, and discharge
all employees of the Company, and determine

32
all matters with regard to such personnel ...
all in consultation with the CEO;
4.2.7 help assure that the Company will be
operated in compliance with all legal
requirements;
Therefore, it was Mr. Schacht’s job to “determine all
matters with regard to such personnel... all in
consultation with the CEO”, as well as to “help assure”
that WPMC committed no crimes.
In his affidavit, Mr. Schacht testified as follows:
During the weeks leading up to Mr. Longmire’s
departure from Wyser-Pratte, that is, in late
2003 - early 2004, Mr. Longmire and I discussed
his deteriorating relationship with Mr. WyserPratte. Specifically, Mr. Longmire said he did
not know what to do, but that he couldn’t work
here anymore. He also said he was wasting his
time coming to work because he was not engaged
in the business anymore, could not discuss the
portfolio anymore with Mr. Wyser-Pratte, and
felt completely disconnected from everything. He
said he needed to get out. Mr. Longmire also
said he believed everyone at Wyser-Pratte hated
him. Mr. Longmire told me that he was also
anxious about Mr. Wyser-Pratte’s pending
divorce and the possibility of having to testify.
Mr. Longmire raised with me whether he should
resign or take some time off from work. [...]

33
On or about January 22, 2004, Mr. Longmire
stopped coming to work.
(See R. 3509, paragraphs 3-5, pages 1-2)
Mr. Schacht testified that “...Mr. Longmire and I
discussed his deteriorating relationship with Mr.
Wyser-Pratte. Specifically, Mr. Longmire said he did
not know what to do, but that he could not work here
anymore. He also said he was wasting his time coming
to work because he was not engaged in the business
anymore, could not discuss the portfolio anymore with
Mr. Wyser-Pratte, and felt completely disconnected
from everything. He said he needed to get out.” Id.
Furthermore, Mr. Schacht testified that “Mr. Longmire
told me that he was also anxious about Mr. WyserPratte’s pending divorce and the possibility of having to
testify”.
Although Petitioner’s SAC does not use the phrase
“constructive discharge”, the allegations in Petitioner’s
SAC are enough to encompass a theory of constructive
discharge. See Fitzgerald u. Henderson, 36 F. Supp. 2d
490 (N.D.N.Y 1999) (“Finally, we have difficulty with
the district court’s summary dismissal of Fitzgerald’s
claim that she was constructively discharged.
Preliminarily, we note that although the specific phrase
“constructive discharge” was not used in the amended
complaint, the pleading asserted that Gerling
continually harassed Fitzgerald, that he did so
deliberately and in bad faith as retribution for her
refusal of his sexual advances, and that his abuse so
persisted and escalated that it essentially brought on a
psychological breakdown, causing her to became unable

34
to work at all. Such allegations are ample to encompass
a theory of constructive discharge.”)
Petitioner alleged that GWP continually harassed
Petitioner to go outside of his job responsibilities and
commit perjury regarding the SEC Telxon insider
trading investigation.
A reasonable person in
Petitioner’s shoes would have felt compelled to resign.
A jury can find that GWP automatically trapped
Petitioner into a corner and forced him in the
unacceptable position of having to choose between
keeping his job and facing criminal liability. See
Higginbotham v. Allwaste, Inc., 889 S.W.2d 411 (Tex.
App. 1994) (“...when an employer asks an employee to
perform some act which is illegal, he automatically puts
the employee to the ‘unacceptable’ choice of risking
criminal liability or being discharged because the
employee is placed under the onus of being terminated
for insubordination.”).
Therefore, if Petitioner quit, which is not the case,
then he was forced to do so against his free will and a
jury can be satisfied that Petitioner’s “working
conditions [were] so difficult or unpleasant that a
reasonable person in the employee’s shoes would have
felt compelled to resign.” Additionally, Petitioner had
zero reasons to leave WPMC absent GWP’s consistent
workplace abuse. Petitioner received a lucrative salary
and already was a senior employee on Wall Street.
Furthermore, the fact that Petitioner was
continually harassed to commit a crime, perjury,
establishes as a matter of law a constructive discharge.
See Strozinsky v. School District of Brown Deer, 237

35
Wis. 2d 19, 614 N.W.2d 443, 2000 Wise. LEXIS 441,
2000 WI 97, 16 I.E.R. Cas. (BNA) 879 (“Intolerable
conditions can arise, however, when the employer
requests or requires an employee to engage in illegal
acts.”); Jacobs v. Universal Development Corp., 53 Cal.
App. 4th 692, 62 Cal. Rptr. 2d 446, 1997 Cal. App.
LEXIS 151, 97 Cal. Daily Op. Service 1573, 12 I.E.R.
Cas. (BNA) 1211, 97 Daily Journal DAR 2277 (“This is
further illustrated by constructive discharge law, which
expressly protects an employee who quits after being
subjected to a continuous pattern of adverse working
conditions.) As shown by Smith v. Brown-Forman
Distillers Corp., 196 Cal.App.3d 503 (1987), intolerable
conditions may arise when an employee has been
required to violate the law at the employer’s direction.”
In Turner v. Anheuser-Busch, Inc., 7 Cal. 4th 1238, 876
P.2d 1022 (1994) the court held that, in some
circumstances, a single intolerable incident, such as a
crime of violence against an employee by an employer,
or an employer’s ultimatum that an employee commit a
crime, may constitute a constructive discharge. Such
misconduct potentially could be found ‘aggravated.
Even Mr. Schacht’s testimony supports the inference
that Petitioner was constructively discharged going into
January 22, 2004. For example, as discussed above Mr.
Schacht testified that “[Petitioner] also said he was
wasting his time coming to work because he was not
engaged in the business anymore, could not discuss the
portfolio anymore with Mr. Wyser-Pratte, and felt
completely disconnected from everything”, which as a
matter of law supports an inference of constructive
discharge. See R. 350. (“With respect to the asserted
change in job responsibilities and stature, evidence of a

36
reduction in job responsibilities to the point where an
employee has nothing meaningful to do with her time
can lead to an inference of constructive discharge....”)
(See Holbrook v. Reichhold Chemicals, Inc., 735
F. Supp. 121, 126 (S.D.N.Y. 1990).
To satisfy the fourth element of establishing a prima
facie employment discrimination case, Petitioner need
only show that he was replaced by someone outside of
his protected class. See McDonnell Douglas Corp. u.
Green, 411 U.S. 792, 802; Owens v. New York City Hous.
Auth., 934 F.2d 405, 408-09 (2d Cir.), cert, denied, 502
U.S. 964, 112 S.Ct. 431, 116 L.Ed.2d 451 (1991);
Sweeney u. Research Found, of State Univ. of New York,
711 F.2d 1179, 1184-85 (2d Cir. 1983). In Bridget
Gladwin v. Rocco Pozzi and County of Westchester, 403
Fed Appx 603, 606 (2d Cir. 2010), plaintiff satisfied the
de minimus burden required to establish a prima facie
case by showing she was replaced by a white male, thus
creating circumstances giving rise to an inference of
discrimination. Additionally, in Zimmerman v. Assocs.
First Capital Corp., 251 F.3d 376, 381 (2d Cir. 2001),
the court noted that “the mere fact that plaintiff was
replaced by someone outside the protected class will
suffice for the required inference of discrimination at
the prima facie stage.” See also Reeves v. Sanderson
Plumbing Products, Inc., 530 U.S. 133 (2000); Byrnie v.
Town of Cromwell, 243 F.3d 93 (2d Cir. 2001); Tarshis
v. Riese Organization, 211 F.3d 30 (2d Cir. 2000); Cook
v. Arrowsmith Shelburne, Inc., 69 F.3d 1235 (2d Cir.
1995).
In GWP’s deposition, he admitted that Petitioner
was replaced by Mr. Treanor, a white male.

37

Q
A
Q
A
Q
A

Who’s Adam Treanor?
He’s my director of research.
Did you hire him?
I did.
Was he hired to replace the
plaintiff?
Yes, he was.

(GWP Depo., 142:18-24). Furthermore, WPMC and
GWP admitted that Mr. Treanor was a white male in
their answer. R. 1978.
Moreover, Petitioner can establish the fourth
element of a prima facie case for discriminatory
termination by showing that he was replaced by a
significantly less qualified white male. Petitioner
alleged in his Second Amended Complaint that:
43.
At the time GWP hired Mr. Treanor to be
WPMC’s Director of Research, Mr. Treanor had
neither merger arbitragev and corporate
governance investing experience, nor “buy side”
experience, other than the small expose he had
received while he worked for the defendants,
spending a great deal of time working for
plaintiff, as a summer associate during the
months of May of 2000 to August of 2000.
This disparity in qualifications between Petitioner
and Mr. Treanor support the inference that Petitioner’s
terminate occurred under circumstances giving rise to
an inference of discrimination. See Ash v. Tyson Foods,
Inc., 546 U.S. 454, 456-57 (2006).”).

38
B. WPMC and GWP Failed to Provide a
Legitimate, Non-Discriminatory
Explanation for Petitioner’s Discharge on
January 31, 2004.
The Supreme Court in Texas Dept, of Community
Affairs v. Burdine, 450 U.S. 248 (1981), carefully
described the burden that shifts to the defendant once
a prima facie case is made out. The Court there said:
The burden that shifts to the defendant,
therefore, is to rebut the presumption of
discrimination by producing evidence that the
plaintiff was rejected, or someone else was
preferred, for a legitimate, non-discriminatory
reason. The defendant need not persuade the
court that it was actually motivated by the
proffered reasons. It is sufficient if the
defendant’s evidence raises a genuine issue of
fact as to whether it discriminated against the
plaintiff. To accomplish this, the
defendant must clearly set forth, through
the introduction of admissible evidence, the
reasons for the plaintiffs rejection. The
explanation provided must be legally
sufficient to justify a judgment for the
defendant.
(emphasis added).
To accomplish this, the defendant must clearly set
forth the reasons for the adverse employment action. Id.
This burden of production includes providing evidence
that providing a lawful explanation for their actions and
to frame the factual issue with sufficient clarity so that

39
the plaintiff will have a complete and fair opportunity
to demonstrate pretext. Id. Thus, aided by the
McDonnell Douglas presumption, which is designed to
force employers to come forward with reasons, “a
plaintiff who proves the minimal prima facie case is
entitled to prevail as a matter of law even without
evidence that would support a reasonable finding of
discriminatory motivation, if the employer does not
come forward with a reason.” Cabrera v. Jakabovitz, 24
F.3d 372 (2d Cir. 1994).
Nowhere in the record is there a scintilla of evidence
produced by WPMC or GWP detailing a legitimate, nondiscriminatory reason for Petitioner’s termination on
January 31, 2004. For that matter, nor did WPMC or
GWP proffer a nondiscriminatory reason for pressuring
Petitioner to commit the required perjury. As a matter .
of law, WPMC and GWP defaulted on their burden of
production and summary judgment should have been
ruled in favor of Petitioner. On their motion for
summary judgment, the employer defendants studiously
avoided the question of whether Petitioner had quit or
was fired - their papers do not mention it at all.
R. 2858-2897. GWP and WPMC avoided joining issue on
this question because to do so would have defeated their
motion for summary judgment for the simple reason
that they denied terminating Petitioner of January 31,
2004. That being the case, they never met their burden
of production, having denied taking any adverse
employment action.

40
C. If Needed, Petitioner Could Show
Pretext If Afforded the Opportunity.
Evidence indicating that an employer misjudged an
employee’s performance or qualifications is, of course,
relevant to the question whether its stated reason is a
pretext masking prohibited discrimination. Tyler v.
ReMax Mountain States, Inc., 232 F.3d 808, 814 (10th
Cir. 2000); Alexander v. Fulton County, 207 F.3d 1303,
1340 (11th Cir. 2000) (noting that ‘evidence showing an
employer hired a less qualified applicant over the
plaintiff may be probative of whether the employer’s
proffered reason for not promoting plaintiff was
pretextual.).
Courts have recognized that an employer’s disregard
or misjudgment of a plaintiffs job qualifications may
undermine the credibility of an employer’s stated
justification for an employment decision. See Fischbach
v. D C. Dep’t of Corr., 86 F.3d 1180, 1183 (D.C. Cir.
1996).
The fact that the GWP and WPMC terminated the
significantly more qualified black male and replaced
him by hiring a significantly less qualified white male
constitutes strong evidence that GWP terminated
Petitioner with the intent to discriminate .against him.
See Stratton v. Department for the Aging for the City of
New York, 132 F.3d 869 (2d Cir. 1997) (“Actions taken
by an employer that disadvantage an employee for no
logical reason constitute strong evidence of an intent to
discriminate. Bullard v. Sercon Corp., 846 F.2d 463,466
(7th Cir. 1988) (the fact that an employee is fired
“without good cause” may in some cases be evidence of
discrimination); In re Lewis, 845 F.2d 624, 633 (6th Cir.

41
1988) (Employer’s decision to fire plaintiff “may have
been so unusual or idiosyncratic as to shed light upon
[its] motivation in firing her. The more questionable the
employer’s reason, the easier it will be for the jury to
expose it as pretext.”); Mesnick v. General Electric Co.,
950 F.2d 816, 823-24 n. 5 (1st Cir. 1991) (“if the
employer offers a shaky, hard-to-swallow reason for its
actions, logic counsels that the plaintiffs follow-on
burden [to prove pretext] should become
correspondingly lighter.”).
In conclusion, the evidence proves that Respondent
had all requisite information and elements to guide the
lower courts through a McDonnell Douglas analysis. In
fact, Respondent through Mr. Lee admitted that he
could have established Petitioner’s prima facie case for
employment discrimination. As noted in their PreArgument Statement, WPMC and GWP botched their
burden of production. Therefore, Respondent through
Mr. Lee and Mr. Lew were required to make the most
basic legal arguments, and they failed to do so causing
great harm to Petitioner, their erstwhile client.

42
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner
Dated: December 10, 2019

